CJ'; o

NO.

it* n

fl

Supreme Court, U.S.
FILED

AUG 2 1 2320

IN THE
SUPREME COURT OF THE UNITED STATES

hfficF

IN Re: Ricardo Watkins PETITIONER
vs.

United States of America

RESPONDENT(S)

ON PETITION FOR A WRIT OF PROHIBITION PURSUANT ALL
WRIT ACT 28 U.S.C. 1651(a) DIRECTED TO THE ASSOCIATE
JUSTICE WITH SUPERVISORY CONTROL OVER THE EIGHTH CIRCUIT
UNDER SUPREME COURT RULE 22-1.
U.S. COURT OF APPEALS FOR THE EIGHTH CIRCUIT

PETITIONER FOR WRIT OF PROHIBITION
Ricardo Watkins FED. REG #17709-424

FEDERAL CORRECTIONAL INSTITUTION LA TUNA

P.O. BOX 3000,
ANTHONY, NM/TX 88021

OF THE CLERK

20-1964

CONSTITUTIONAL

QUESTION

WHETHER RICARDO WATKINS SHOULD BE RESEASED TO HOME CONFINEMENT
UNDER THE CARES ACT OF MARCH 2020, BECAUSE OF HIS UNDERLYING,
DEBILITATING MEDICAL CONDITIONS AND THE FAILURE OF FCI, LUNA'S
MANAGEMENT TO TAKE BASIC HYGIENE STEPS, AND CONDUCT COVID-19
TESTS TO PROTECT BOTH STAFF AND INMATES?

LIST OF PASTIES

[] All parties appear in the caption of the case on the cover
page.
I] All parties do not appear in the caption of the case on the
cover page. A list of all parties to the proceeding in the
court whose judgment is the subject of this petition is as
follows:

ii

TABLE OP CONTENTS

OPINIONS BELOW

1

JURISDICTION

2-3

CONSTITUTIONAL AND STATUTORY PROVISIONS - INVOLVED

4-5

STATEMENT OF THE CASE

6-7

REASONS FOR GRANTING THE WRIT

8-15

CONCLUSION

16

INDEX TO APPENDICES

APPENDIX A

Judgment from Eight Circuit

APPENDIX B

Judgment & Commitment from District Court

APPENDIX C

Denial fran Warden Bergami

APPENDIX D

Certificates of Programming

APPENDIX E
APPENDIX F
APPENDIX G
APPENDIX H

iii

No.

IN THE
SUPREME COURT OF THE UNITED STATES

IN RE: RICARDO WATKINS -PETITIONER
vs.
UNITED STATES OF AMERICA -RESPONDENT(S)
ON PETITION FOR A WRIT OF PROHIBITION TO
U.S. COURT OF APPEALS FOR THE EIGHT CIRCUIT
PETITION FOR WRIT OF PROHIBITION

RICARDO WATKINS
F.C.I. LA TUNA
P.O. BOX 3000
ANTHONY, NM/TX 88021

x

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF PROHIBITION

Petitioner respectfully prays that a writ of prohibition issue to
review the judgment below.
OPINIONS BELOW
[] For cases from federal courts:
The opinion of the United States court of appeals appears at
Appendix A to the petition and is
[] reported at ______________________________ ? or,
[] has been designated for publication bur is not yet reported;
pq is unpublished.
The opinion.of the United States district court appears at
Appendix_____ to the petition and is
; or.
[] reported at ___________________
KilPr
[] has been designated for publication but is not yet reported;
[] is unpublished.
[] For cases from state courts:
The opion of the highest state court to review the merits
to the petition and is
appears at Appendix
? or,
[ ] reported at ____ ____________________
t] has been designated for publication but is not yet reported;
[3 is unpublished.

Ml A.

Nlk

__________court
The opinion of the
to the petition and is
appears at Appendix
[ ] reported at _______________________________ ; or,
[] has been designated for publication but is not yet reported;
[] is unpublished.

1

JURISDICTION
i

[] For cases from federal courts:
The date on which the United States Court of Appeals decided
my case was July 06,2020
fX) No petition for rehearing was timely filed in my case.
#

[] A-timely petition for rehearing was denied by the
United States Court of.Appeals on the following date:
________ Kl 11\___________ T and a copy of the order denying
rehearing appears at Appendix

I

[] An extension of time to file the petition for a writ of
certiorari was granted to and including
(date) in Application No*
(date) on

ul IV

A
The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).
[] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
[] A timely petition for rehearing was thereafther denies on
, and a copy of the order
the following date:
denying rehearing appears at Appendix
[] An extension of time to file the petition for a writ of
(date) on
certiorari was granted to and including
Ar

Hlfr

(date) in Application No.

A

Me

The jurisdiction of this Court is invoked under 28 U.S.C. §
1257(a).

2

a

SIT OF JURISDICTION

The Supreme court of the United States has original jurisdiction over three
categories of case, first, the Supreme Court can exercise original jurisdiction
over "actions of proceedings to which ambassadors, other public ministers,
consuls, or vice consuls or foreign states are parties." See, e.g. Maryland v.
Louisiana, 451 U.S. 725,737 (1981).
Second, the Supreme court also possesses original jurisdiction for "(all)
controversies between the United States and a state," 28 U.S.C. Section 1251 (b)
(2).
Finally, Section 1251 provides for original jurisdiction in the Supreme court,
"for (all) actions or proceedings by a state against the citizens of another
state or against aliens." See, Oregon v. Mitchess, 400 U.S. 112(1970), United
States v. Louisiana, 339 U.S. 699 (1950), United States v. California, 332 U.S.
19 (1947).
The statutes defining the Supreme Court's jurisdiction between "appeal" and
"certiorari" as vehicles for appellate review of the decision of state and lower
federal courts. Where he statutes provides for "appeal" to the Suprimr court,
the Court is obligated to take and decide the case when appellate review is
requested. Where the statute provides for review by "writ of prohibition,"
the court has completer case if there are for votes to grant prohibition
Effective September 25,1988, the distinction between appeal and prohibition
as a vehicle for review was virtually entirely eliminated. Now almost all
cases ocxne to the Supreme Court by writ of prohibition. Pub.L.N. 100-352,102
Stat. 662 (1988).
WRIT OF PROHIBITION PURSUANT TO 28 U.S.C.. ACTION 1651 IN AID OF THE SUPREME
COURT'S JURISDICTION.
(a) The Supreme Court and all courts established by Act of Congress, may issue
all writs necessary or appropriate in aid of their respective jurisdictions
and agreeable to the usages and principles of law.
(b) An alternative writ or law may be issued by a justice or judge of a court
which has jurisdiction.
Utilizing Rule 22-1 of the Supreme Court Rules, a justice (Associate Justice of
the Eight Circuit to whan an application to a Writ of prohibition is submitted
may refer to the Court for determination.
3

CONSTITUTIONAL AND STATUTORY PROVISIONS
LAW RELATED TO STRUCTURAL ERROR
In conducting harmless error analysis of constitutional violations
in habeas cases, the Supreme Court repeatedly has reaffirmed that
”(s)ome constitutional violations • • • by their very nature cast so
much doubt on the fairness of the trial process that, as a matter
of law, they can never be considered harmless. Satterwhite v.
Texas, 486 U.S. 249,256 (1988); accord Neder v. United States,
527 U.S. 1,7(1999)("(W)e have recognized a limited class of
fundamental constitutional errors that 'defy analysis by "harmless
error" standards'

• • • Errors

of this type are so intrinsically

harmful as to require automatic reversal (i.e • • 'affect substantial
rights1) without regard to their on the outcome.").

Sullivan v. Louisiana, 508 U.S. 275,279(1993)("Although most
comstitutionsl errors have been held to harmless-error analysis,
some will always invalidate the convicrion."(citations omitted));
id at 283 (Rehnquist, C.J.,concurring); United States v. Olano,
507 U.S. 725,735 (1993); Rose v. Clark, 478 U.S. 570,577-78 (1986)
("some constitutional errors require reversal without regard to
the evidence in the particular case...(because they) render a
trial fundamentally unfair"); Vasquez v. Hillary, 474 U.S. 254,
283-264(1986); Chapman v. .California, 386 U.S. 1 8,23<1967)("there
are some constitutional rights so basic to a fair trial that their
infraction can never be treated as harmless error").

4

LAW RELATED TO STRUCTURAL ERROR FOR JUDICIAL BIAS

Included in the definition of structural errors, is the right to
an impartial judge, i.e. the right to a judge who follows the
constitution and Supreme Court precedent ad upholds the oath of
office. See, e.g. Neder v. United States, supra., 527 U.S. at 8
{’’biased trial judge" is "structural error" and thus is subject
to automatic reversal"); Edwards v. Balisok, 520 U.S. 461,469
(1997; Sullivan v. Louisiana, 508 U.S. at 279; Rose v. Clark,
478 U.S. 570,577-78 (1986); Tunney v. Ohio, 273 U.S. 510,523
(1927).

5

STATEMENT OF CASE
According to Government accounts memorialized in the court records, from at
least 1996 through the fall of 1999, Watkins regularly purchased crack cocaine
from several different people in Illinois and arranged for it to be transported
to and sold in Cedar Rapids, Iowa. Watkins purchased distributing quantities of
crack cocaine at intervals varying from twice month to twice a week, depending
upon demand. During this time, Watkins used more than ten different people to
help him cut, package, transport and sell the sell the drugs. Christopher
Winters testified that he sold crack cocaine to Watkins several times in 1996
and regularly between the fall of 1997 and the fall of 1999. He testified that
he sold between 2.25 and 4.5 ounces if crack cocaine and one sold him 9 ounces
of crack cocaine.
Alvis Davis testified that from the fall of 1997 into 1998 and again in 1999,
he and Watkins bought crack cocaine in Chicago and transported it to Cedar
Rapids, where he would provide the crack cocaine to others for sale on their
{486 F.3d 463) behalf. Davis testified that during the time period Watkins would
travel to Chicago usually twice each week to buy 4.5 ounces of crack cocaine
or each trip. Willie Herron, Dewayne Shears and Jessica Martkey all testified
that they have transported crack cocaine from Chicago to Cedar Rapids for
Watkins and Davis.
In March 1998, a confidential informant working with the police in the Cedar
Rapids area purchased a "rock" directly from Watkins and Davis for $100 • «
("the controlled purchase"). In August 1998, fearing that he was under invest­
igation, Watkins executed a proffer agreement with the United States Attorney's
office for the Northern District of Illinois, ("the 1998 proffer agreement").
Watkins did not have legal counsel at the tine. The agreement the government to
use Watkins* proffer statement against him if he "should subsequently testify
contrary to the substance of the proffer, otherwise a position at
sentencing or a position inconsistent with the proffer. Pursuant with the
proffer, Watkins provided incriminating information about his crack cocaine
distribution in Cedar Rapids.

6

An Iowa federal grand jury indicted Watkins in October 1999, on the instant
charges, and he was arrested in March 2005 in Illinois. The district court
appointee counsel to represent Watkins. In 2005, Watkins entered into a proffer
agreement with the United States Attorney's office for the Northern District of
Iowa through his attorney, ("the 2005 proffer agreement"), under the terms of
which he again providing incriminating information regarding his distribution
of crack cocaine in Cedar Rapids. Watkins's counsel believed that the 2005
proffer agreement could not be used to impeach Watkins, if he were to testify.
However, the agreement actually provided that the information received during
the proffer could be used, "to impeach your client's credibility, and to
focus on rebuttable, claims against your clients to develop leads from
information provided, and for all others non-evidentiary purposes."

7

REASONS FCR GRANTING
INIRODDCTECN

Ricardo Watkins, respectfully seeks leave of this Honorable Court to entertain
his application for a Writ of Prohibition which he has applied for under the
All Writs Act, 28 U.S.C. 1651(a) which in pertinent part, states that, all courts
established by Act of Congress may issue, all writs necessary or appropriate in
aid of their respective jurisdictions, and agreeable to the usages and principles
of law.
WHY RICARDO WATKINS IS FILING THIS WRIT IN AID OF THIS HONORABLE COURT'S
APPELLATE JURISDICTION ?
As here, the traditional use of the Writ
at common law and in the federal courts,
which the Writ of Prohibition is sought,
jurisdiction. "Roche v. Evaporated Assn,
938 (1943).

in aid of appellate jurisdiction both
has been to confine the court against
to a lawful exercise of its prescribed
319 U.S. 21,26 87 L.Ed 1185, 63 S.Ct.

toe of the primary reasons, Ricardo Watkins is seeking a 'drastic and extraordinary
remedy reserved for really extraordinary .cases is the fact that the lower courts
(District Court and the Court of Appeals for the Eight Circuit), were unwilling to
play by the rules, with respect to the clear and unexpurgated..! provisory of the
CARES Act of March 2020, and the subsequent April Memo issued to the Director
of the B.O.P • / increasing the use of Hone Confinement at institutions « • • affected
by Covid-19.(April 3,2020, available at http://www.justice.gov/file/1266661/
download.
What makes this case particularly had for the administration of justice in the
Eight Circuit is the fact that, the Eight Circuit appears to be in complicity
with the District Circuit. Stripped of its legal niceties, this case constitutes
an "—imprimatur to a miscarriage of justice."
RICARDO WATKINS OONTEiSDS THAT THE ALLEGATIONS HE MAKES CONSTITUTE EXCEPTIONAL
CIRCUMSTANCES.
Although the courts have not "confined themselves bo an arbitrary and technical

8

X

(Ill) experiencing deteriorating physical or mental health because of the aging
process, that substantially diminishes the ability of the defendant to provide
self-care within the environment of a correctional facility and from which he
or she is not expected to recover.
2. Foreseeability of Extraordinary and Compelling reasons. R>r purposes of this
public policy statement, an extraordinary and compelling reason need not have
been unforeseen at the time of sentencing in order to warrant a reduction in the
term of imprisonment. Therefore, the fact that an extraordinary and compelling
reason reasonably could have been known or anticipated by the sentencing court
does not preclude consideration for a reduction under the policy statement.
3. Rehabilitation of the defendant. Pursuant to 28 U.S.C. Section 994(t)
rehabilitation of the defendant is not, by itself, an extraordinary and
compelling reason for purposes of this policy statement.
BACKGROUND
The Commission is required by 28 U.S.C. Section 994(a)(2) to develop general
policy statements regarding application of the guidelines or other aspects of
sentencing that in the view of the commission would further the purposes of
sentencing (18 U.S.C Section 3553(a) (2) (2), including among other things, the
appropriate use of the sentence modification provisions set forth in 18 U.S.C.
Section 3582(C). In doing so, the Commission is authorized by 28 U.S.C. Section
994(t) to "subscribe what should be considered extraordinary and compelling ..
reasons for sentence reduction, including the criteria to be applied and a list
of specific examples".
REASONS FOR GRANTING RICARDO WATKINS RELIEF ON 18 U.S.C. 3582(c)(1)(A) IN
ADDITION TO A PREVIOUSLY FILED BUT UNDECIDED SECTION 404 BEFCKE HIS SENTENCING
COURT.
Ricardo Watkins ^ based on the information posited in this request for compass­
ionate release, allied with credible published reports, moves this Honorable
court to, on an .emergency basis to give his case the dire attention it needs.
The impetus of this._; requested release is premised in the present national

9

definition of jurisdiction.*' Will v. United States. 389 U.S. 90,95/ 19 L.Ed.2d
305, 88 S.Ct. 269. Ricardo Watkins further avers that, as the Writ is one of
the roost potent weapons in the judicial arsenal, i.e. at 107, 19 L.Ed. 2d 305,
88 S.Ct / • 269, his case satisfies the three conditions ithat must be satisfied
before it may issue, Kerr v. United States Dis. Court for Northern District of
Calif, 426 U.S. 394,403,48 L.Ed.2d 725,96 S.Ct 2119 (1975).
Ricardo Watkins has no other means to attain the relief he seeks, ibid - a
condition designed to ensure that the writ will not be used as a substitute for
the regular appeal process. Fahey, supra, 260, 91 L.Ed 2041, 67 S.Ct 1558.
Second, he roust satisfy "the. burden of-showing that his right to issuance of
the writ is "clear and indisputable.""Kerr, supra at 403, 48 L.Ed.2d 725, 96
S.Ct. 2119 (quoting Bankers Life and Casualty Co, supra, at 384, 98 L.Ed 1206,
74 S.Ct. 145)."
Third, even if the first two prerequisites have been met, the issuing source, J
in the exercise of its discretion must be satisfied that the merit is appropriate
under the circumstances. Kerr, supra at 403, 48L.Ed.2d 725, 96 S.Ct. 2119 (citing
Schagfenhauf v. Holder, 379 U.S. 104, 112 n8, 13 L.Ed. 2d 152, 85 S.Ct 234 (1964).
These hurdles, however demanding are not insuperable, the Supreme Court has
issued the writ to restrain a lower court when its actions would threaten the
separation of powers by "embarrassing the executive arm of the government."
Ex Parte Peru, 318 U.S. 578,588,87 L.Ed 1014, 63 S.Ct 793 (1943) or result in
the intrusion by the federal judiciary on a delicate area of federal, state
relations," Will, supra, art. 95, 10 L.Ed. 2d 305,88 S.Ct. 269 (citing Maryland
v. Soper (No.1) 270 U.S. 9,70 L.Ed 449,46 S.Ct. 185 (1926).
Included in the definition of structural error is the right to an impartial
judge who follows the constitution and Supreme Court precedents and upholds the
oath of office. See, Neder v., United States, supra, 527 U.S. at 8. Biased
judge is "structural error that is subject to automatic reversal) Edward Balisok;
Sullivan v. Louisiana, 508 U.S. at 279; Rose v. Clark, 478 U.S. 508 U.S. at
279; Rose v. Clark, 478 U.S. 507,577-78(1986); Tunney v. Ohio, 273 U.S. 510,
523 (1927).

10

Thus, based on Ricardo Watkin's argument in this application for a writ of
prohibition, his entitlement to the writ is clear and indisputable.
Additionally, the Supreme court has issued the writ to restrain a lower court
to, as here, when its actions would threaten the separation of powers by
"embarrassing the executive arm of the government." Ex Parte Peru, 318 U.S. 578,
588, 87 L.Ed 1014, 63 S.Ct 793 (1943), or result in the "intrusion by the federal
judiciary on a delicate area of federal-state relations." Will, supra, at 95,
19 L.Ed.2d 305, 88 S.Ct. 269 (citing Maryland v. Soper (NO.1),270 U.S. 9,
70 L.Ed 449. 46 S.Ct. 185 (1926).
DISCUSSION AND LEGAL ANALYSIS
Ricardo Watkins respectfully moves this Honorable Court to entertain this
petition filed under the CARES ACT, pursuant to a reduction of sentence (RIS)
through the instrumentality of Section 3582(c)(1)(A). This request was initiated
based on the "other reasons" criteria of United States Sentencing Guidelines,
Section 131.13 comment (n.1)(D), the policy statement for compassionate release,
which permits a reduction when "there exists in a defendant’s case an extraordinary
and compelling reason other than or in combination with "the remainder of the
Guidelines definition. See U.S.S.G. Section 1B1.13, n.1(D).
Until recently, only the BOP could move to reduce a term of imprisonment for
extraordinary and compelling reasons. Then in late 2018, the First Step Act
amended 18 U.S.C. Section 3582(c)(1)(A) to permit a defendant to file such a
motion, 18 U.S.C. Section 3582(c)(1)(A) (as amended).
EXTRAORDINARY AND COMPELLING CIRCUMSTANCES
As an initial matter, Ricardo Watkins contends, at PCI, La Tuna where he is
currently incarcerated, he has a well documented case chronic respiratory issues
such as asthma, bronchitis, and high blood pressure. He also has a medical
history that proves that his diagnosed conditions can be classified as a
debilitated medical condition, which are among the ailments designated by the
CDC (Center for Disease Control) that makes a similarly situated individual, ...
like h±m:<susceptible and vulnerable to COVID-19, because it compromises his
inntune system and often leads to death.

11

Ricardo Watkins also avers, extraordinary and compelling reasons could also
include situations where a defendant like Ricardo Watkins, is suffering from
a medical or physical condition "that substantially diminishes the ability of
the defendant to provide self-care within the environment of a correctional
facility, and from which he or she is not expected to recover." Id. Ricardo
Watkins contends that the state of his medical health, presents a particularly
"extraordinary and compelling circumstance" so as to qualify him for the
requested RIS motion.
His deteriorating health, coupled with the Bureau of Prisons' inability to
provide proper and adequate medical care to him, further exacerbates the
extraordinary and compelling reason, to warrant compassionate release to
Hone Confinement. In fact, he further contends that this state of affairs
rises to the level of constituting a potential 8th Amendment Right against
Cruel and Unusual Punishment. See Herrere v. Collins, 506 U.S. 390,432 n.2
(1993).
On Tuesday, July 29,2020, five inmates had to be quarantined at PCI, La Tuna,
because they tested positive for Coronavirus. Ricardo Watkins believes because,
there has not been no previous testing of either the inmates or staff, there is
no telling how many more would be positive for the test. The five inmates
developed very severe debilitating symptons, hence the discovery they had
contracted the virus.
Anecdotally, because of the urgency of this life threatening condition, Ricardo
Watkins is seeking Covid-19 protection by releasing him to Hone Confinement.
At the time of writing the State of Texas, along with Florida, Arizona and
California are witnessing an unprecedented surge in the number of Covid-19 cases
and deaths.
STATEMENT OF ADJUDICATIVE FACTS PURSUANT TO RUT£ 201 FEDERAL Rnr.FR OF EVIDENCE
WITH RESPECT TO 18 U.S.C. SECTION 3582(c)(1)(A).
Pursuant to the amendments; made to the Second chance Act by the First Step Act
of 2018, a defendant like Ricardo Watkins can pursue a motion to modify a
sentence for "extraordinary and compelling reasons • « • as here, "after the lapse

12

of 30 days from the receipt of such arequest to modify a sentence by the Warden
of his facility. See EXHIBIT 1. "18 U.S.C. Section 3582(c)(1 HA), Also, See
Mohrtoacher v. Ponce, No. Cv 18-00513-DMG, 2019 WL 161727 (C.D. Cal Jan.10,2019)
(discussing modifications made to Section 3582(c)(1)(A) by the First Step Act);
United States v. Curry, No. Cr 6:06 - 082-DCR,2019 WL 508067 (E.D. Ky. Feb. 8,
2019)(discussing same), and "if petitioner—seeking to file his own motion for
compassionate release, such a.motion must be filed in the sentencing court.
"Brown v. Underwood, No..3:19-CV-1706-B-Bn, 2019 WL 5580106, at *2 (N.D. Tex.
Aug 22,2019) report and recommendation adopted. No.#:3:19-Cv-1706-B,2019 WL
5579198 (N.D. Tex. Oct.28, 2019).
Until recently, only the Director of the B.O.P. could file an 18 U;S.C. Section
3582(c)(1)(A) motion to a court to reduce a term of imprisonment (and may inpose
a tern of supervised release with of without conditions that does not exceed
the unserved portion of the original term of imprisonment) if, after considering'
the factors set forth in 18 U.S.C. Section 3553(a), to the extent that they are
applicable, the court determines that The defendant is not a danger to the safety of any other person or to the
community, as provided in 18 U.S.C. Section 3142(g); and
The reduction is consistent with the policy statement.
Commentary
Application Notes:
1. Extraordinary and Compelling Reasons, provided the defendant meets the
requirements of subdivision;
2. Extraordinary and Compelling reasons exist under any of the circumstanoes
set forth below;
(A) Medical condition of the defendant in custody:
(i) The defendant is suffering from a terminal disease (i.e., a serious and
advanced illness with an end of life trajectory). a specific prognosis of life
expectancy (i.e. a probability of death within a specific time period) is not
required. Examples include metastatic solid-tumor cancer, amyotrophic lateral
sclerosis (ALS) , end-stage organ disease, and advanced dementia.
(ii) The defendant is in custody.
(I) suffering from a serious physical or medical condition.
(II) suffering from a serious functional or cognitive impairment, or

13

emergency posed by the coronoravirus pandemic, coupled with Ricardo
Watkins medical situation which is well documented in his instit­
utional records.
Based on widespread published reports, of which he craves this
Honorable Court to take judicial notice, older and ever younger
people with underlying health conditions are susceptible to falling
severely ill from the novel coronavirus. See, e.g. https://www.cdc
.gov/coronavirus/2019-ncov/specific-groups/high-risk-complication
s.html) "older people and people of any age who have serious
underlying medical conditions maybe at higher risk for more serious
complications from COVID-19"), Dati Blocker, "older Adults advised
to stay home as much as possible1 during coronavirus outbreak,"
UC Health Today (March 10,2020) found at https://uchealth.org/
today/older-adults-cornavirus-can-be-more-serious/ (citing Dr.
Anthony Fauci, infectious disease expert as stating, "If you are
an elderly person or young person with an underlying condition,
^ you get infected, the risk of getting into trouble is consider­
able").
In a recent editorial in the Washington Post, one author of whoj-..
is a professor of medicine and epidemiology at Brown University,
recounted that in China, the COVID-19 spread, rapidly in Chinese
correctional facilities remain densely populated and poorly
designed to prevent the inevitable rapid and widespread
dissemination of this virus. "Josiah Rich, Scott Allen, and
Marvis Mimoh, "We must release prisoners to lessen the spread
of coronavirus." The Washington Post March 17,2020
Separate, from the issue of life and death expressed in this
case, Ricardo Watkins submits that a reduction to time
served is warranted based on a motion

14

he filed to the District Court, in which he invokes the fact
404 grants the district court discretion to reduce sentences
excessively-harsh penalty structure that Congress has shown.
United States, 131 S.Ct. 1229,1241 <2011), the Supreme Court
important nature of post-sentence rehabilitation. Id.

that Section
imposed under the
In Pepper v.
emphasized the

In addition, evidence of post sentencing rehabilitation
maybe highly relevant to several of the (18 U.S.C.) Section
3553(a) factors that Congress has expressly instructed district
courts to consider at sentencing. For example, evidence of post
sentencing rehabilitation may be plainly be relevant to 'the
history and characteristics of the defendant.'Section 3553(a)(1).
Such evidence may also be pertinent to'the need for the sentence
imposed' to serve the general purposes of the sentencing set
in particular,'protect the public
forth in Section 3553(a)(2)
from further crimes of the defendant,'and provide the defendant ...
with needed educational or vocational training...or other
correctional treatment in the most effective manner,'Sub-section
3535(a)(2)(B)-(D); see McManus, 496 F.3d aat 853 (Mellow,J
concurring)("In assessing * * * deterrence, protection of the
public and rehabilitation, 18 U.S.C. Section 3553(a)(2) (B) (C) &
(D), there would seem to be no better evidence than a defendant's
post incarceration conduct."). Post sentencing rehabilitation
may also critically inform a sentencing judge's overarching
duty under Section 3553(a) to 'inpose a sentence sufficient,
but not greater than necessary 'to comply with the sentencing
purposes set forth in Section 3553(a)(2).
Pepper, 131 S.Ct. at 1242. Since Ricardo Watkins's sentencing, he has aptly
participated in various educational and vocational programs to obtain skills to
prepare for his release date. See EXHIBIT 2 - Sample copies of Certificates of
programs he has participated and completed while in B.O.P • •

15

CONCLUSION
WHEREFORE, Petitioner Ricardo Watkins moves this Honorable
court to grant this writ of Prohibition.
Date:

/tvs

P/, [PP &
Respectfully Submitted
Ricardo Watkins

16

